No. 20-_____
IN THE

Supreme Court of the United States
CHRISTY, INC.,

Petitioner,

v.
UNITED STATES,

Respondent.

On Petition For A Writ Of Certiorari To The United States Court Of Appeals For The
Federal Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,971 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed this 21st day of January, 2021

James F. McDonough, III
Counsel of Record

